               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00685-156




    Combined Assessment Program 

             Review of the 

    VA Montana Health Care System 

        Fort Harrison, Montana 





May 19, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 COS            Chief of Staff
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Montana Health Care System
                 FY             fiscal year
                 IHS            Indian Health Service
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                          CAP Review of the VA Montana Health Care System, Fort Harrison, MT



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishment........................................................................................                    2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              28

  F. Report Distribution .............................................................................................            29

  G. Endnotes ...........................................................................................................         30





VA OIG Office of Healthcare Inspections
                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
March 3, 2014.

Review Results: The review covered seven activities.                            We    made     no
recommendations in the following two activities:

 Environment of Care

 Nurse Staffing

The facility’s reported accomplishment was a partnership with Indian Health Service to
create a climate of collaboration to support Native American veteran needs.

Recommendations: We made recommendations in the following five activities:
Quality Management: Require the Medical Executive Committee to document its
discussion of unusual findings or patterns from Peer Review Committee quarterly
summary reports. Ensure that the Cardiopulmonary Resuscitation Committee reviews
each code episode and that code reviews include screening for clinical issues prior to
the code that may have contributed to the occurrence of the code. Require that there is
a Surgical Work Group that meets monthly, includes the Chief of Staff as a member,
and documents its review of National Surgical Office reports. Ensure all surgical deaths
are tracked and reviewed by appropriate clinical staff. Review the quality of entries in
the electronic health record at least quarterly.

Medication Management: Conduct and document patient learning assessments.

Coordination of Care: Provide discharge instructions on all aftercare needs to patients
and/or caregivers, and document this in the electronic health record. Validate patients’
and/or caregivers’ understanding of the discharge instructions provided. Ensure
patients receive ordered aftercare services and/or items within the ordered/expected
timeframe.

Pressure Ulcer Prevention and Management: Accurately document location, stage, risk
scale score, and date pressure ulcer acquired for all patients with pressure ulcers.
Provide and document pressure ulcer education for patients with pressure ulcers and/or
their caregivers.

Community Living Center Resident Independence and Dignity: Document resident
progress towards restorative nursing goals. Ensure employees who perform restorative
nursing services receive training on and competency assessment for range of motion
and resident transfers.



VA OIG Office of Healthcare Inspections                                                          i
                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–27, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
March 6, 2014, and was done in accordance with OIG standard operating procedures
for CAP reviews.    We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                         1
                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the VA Montana Health Care System, Fort Harrison, Montana,
Report No. 09-03744-233, August 26, 2010).

During this review, we presented crime awareness briefings for 110 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
209 responded. We shared summarized results with the facility Director.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

IHS Partnership
The facility has successfully developed a partnership with IHS leadership to create a
climate of collaboration to support Native American veteran needs. Based on a national
agreement between VHA and IHS, local implementation plans were developed with
each IHS facility to authorize VA to reimburse the facility for services they provide to
eligible veterans who are American Indian/Alaska Native. Each local implementation
plan describes the responsibilities of the VA facility and the IHS facility and includes a
list of health care services available through each facility. This list of services is unique
to the IHS facility and used as the basis for reimbursement. The facility has established
local implementation plans with all IHS facilities within Montana.                 American
Indian/Alaska Native veterans benefit from this partnership by being able to get care
closer to home.




VA OIG Office of Healthcare Inspections                                                         2
                                          CAP Review of the VA Montana Health Care System, Fort Harrison, MT



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met             Twelve months of MEC meeting minutes
       selected requirements:                            reviewed:
        The PRC was chaired by the COS and               Unusual findings and/or patterns from the
          included membership by applicable service         quarterly summary reports were not
          chiefs.                                           documented as discussed.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                   3
                                          CAP Review of the VA Montana Health Care System, Fort Harrison, MT


 NM                Areas Reviewed (continued)                                    Findings
        Observation bed use met selected
        requirements:
         Local policy included necessary elements.
         Data regarding appropriateness of
           observation bed usage was gathered.
         If conversions to acute admissions were
           consistently 30 percent or more,
           observation criteria and utilization were
           reassessed timely.
        Staff performed continuing stay reviews on at
        least 75 percent of patients in acute beds.
  X     The process to review resuscitation events         Twelve months of Cardiopulmonary
        met selected requirements:                         Resuscitation Committee meeting minutes
         An interdisciplinary committee was               reviewed:
           responsible for reviewing episodes of care       There was no evidence that the committee
           where resuscitation was attempted.                 reviewed each episode.
         Resuscitation event reviews included              There was no evidence that code reviews
           screening for clinical issues prior to events      included screening for clinical issues prior to
           that may have contributed to the                   the code that may have contributed to the
           occurrence of the code.                            occurrence of the code.
         Data were collected that measured
           performance in responding to events.
  X     The surgical review process met selected            The facility did not have an interdisciplinary
        requirements:                                        committee that included appropriate
         An interdisciplinary committee with                leadership and clinical membership, met
           appropriate leadership and clinical               monthly, and reviewed surgical processes
           membership met monthly to review                  and outcomes.
           surgical processes and outcomes.                 The facility’s process did not ensure that all
         All surgical deaths were reviewed.                 surgical deaths were tracked and reviewed by
         Additional data elements were routinely            appropriate clinical staff.
           reviewed.
        Critical incidents reporting processes were
        appropriate.
  X     The process to review the quality of entries in    Twelve months of Medical Records Review
        the EHR met selected requirements:                 Committee meeting minutes reviewed:
         A committee was responsible to review             EHR quality data was not analyzed quarterly.
           EHR quality.
         Data were collected and analyzed at least
           quarterly.
        Reviews included data from most services
        and program areas.
        The policy for scanning non-VA care
        documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                         4
                                           CAP Review of the VA Montana Health Care System, Fort Harrison, MT


 NM             Areas Reviewed (continued)                                      Findings
        The process to review blood/transfusions
        usage met selected requirements:
         A committee with appropriate clinical
            membership met at least quarterly to
            review blood/transfusions usage.
         Additional data elements were routinely
            reviewed.
        Overall, if significant issues were identified,
        actions were taken and evaluated for
        effectiveness.
        Overall, senior managers were involved in
        performance improvement over the past
        12 months.
        Overall, the facility had a comprehensive,
        effective QM/performance improvement
        program over the past 12 months.
        The facility met any additional elements
        required by VHA or local policy.

Recommendations

1. We recommended that the MEC document its discussion of unusual findings or patterns
from PRC quarterly summary reports.

2. We recommended that processes be strengthened to ensure that the Cardiopulmonary
Resuscitation Committee reviews each code episode and that code reviews include screening
for clinical issues prior to the code that may have contributed to the occurrence of the code.

3. We recommended that the facility have a Surgical Work Group that meets monthly, includes
the COS as a member, and documents its review of National Surgical Office reports.

4. We recommended that processes be strengthened to ensure that all surgical deaths are
tracked and reviewed by appropriate clinical staff.

5. We recommended that processes be strengthened to ensure that the quality of entries in
the EHR is reviewed at least quarterly.




VA OIG Office of Healthcare Inspections                                                                    5
                                          CAP Review of the VA Montana Health Care System, Fort Harrison, MT


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the emergency department, the CLC, the intensive care unit, the inpatient
medical/surgical unit, primary care, the x-ray and fluoroscopy areas, and the acute MH unit.
Additionally, we reviewed relevant documents, conversed with key employees and managers,
and reviewed 28 employee training records (9 radiology employees, 10 acute MH unit
employees, 4 Multidisciplinary Safety Inspection Team members, and 5 occasional acute MH
unit employees). The table below shows the areas reviewed for this topic. Any items that did
not apply to this facility are marked NA. The facility generally met requirements. We made no
recommendations.

NM            Areas Reviewed for General EOC                                 Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.




VA OIG Office of Healthcare Inspections                                                                   6
                                          CAP Review of the VA Montana Health Care System, Fort Harrison, MT


NM      Areas Reviewed for Radiology (continued)                               Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
       MH unit staff, Multidisciplinary Safety
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.




VA OIG Office of Healthcare Inspections                                                                   7
                                          CAP Review of the VA Montana Health Care System, Fort Harrison, MT


NM      Areas Reviewed for Acute MH (continued)                                Findings
       The locked MH unit was in compliance with
       MH EOC Checklist safety requirements or an
       abatement plan was in place.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                   8
                                          CAP Review of the VA Montana Health Care System, Fort Harrison, MT


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 35 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
 X    Clinicians conducted inpatient learning              Thirty-two patients (91 percent) did not have
      assessments within 24 hours of admission or           documented learning needs assessments.
      earlier if required by local policy.
      If learning barriers were identified as part of
      the learning assessment, medication
      counseling was adjusted to accommodate the
      barrier(s).
      Patient renal function was considered in
      fluoroquinolone dosage and frequency.
      Providers completed discharge progress notes
      or discharge instructions, written instructions
      were provided to patients/caregivers, and EHR
      documentation reflected that the instructions
      were understood.
      Patients/caregivers were provided a written
      medication list at discharge, and the
      information was consistent with the dosage
      and frequency ordered.
      Patients/caregivers were offered medication
      counseling, and this was documented in
      patient EHRs.
      The facility established a process for
      patients/caregivers regarding whom to notify in
      the event of an adverse medication event.
      The facility complied with any additional
      elements required by VHA or local policy.

Recommendation

6. We recommended that processes be strengthened to ensure that patient learning
assessments are conducted and documented and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                     9
                                          CAP Review of the VA Montana Health Care System, Fort Harrison, MT


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of 32 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                   Areas Reviewed                                          Findings
       Patients’ post-discharge needs were identified,
       and discharge planning addressed the
       identified needs.
 X     Clinicians provided discharge instructions to       Twelve EHRs (38 percent) did not contain
       patients and/or caregivers and validated their       evidence that patients and/or caregivers were
       understanding.                                       provided with discharge instructions related to
                                                            restricted/special diets, wound care/dressing
                                                            changes, and/or prosthetics.
                                                           Of the 13 patients who received discharge
                                                            instructions for wound care, 4 EHRs did not
                                                            contain documentation that clinicians
                                                            validated patients’ and/or caregivers’
                                                            understanding of the discharge instructions
                                                            they provided.
 X     Patients received the ordered aftercare             Six patients (19 percent) did not receive the
       services and/or items within the                     services and/or items ordered within the
       ordered/expected timeframe.                          ordered/expected timeframe.
 X     Patients’ and/or caregivers’ knowledge and          Thirty-one patients (97 percent) did not have
       learning abilities were assessed during the          documented learning needs assessments.
       inpatient stay.                                      Because we had a similar finding in the
                                                            medication management review, we did not
                                                            make a recommendation here.
       The facility complied with any additional
       elements required by VHA or local policy.


Recommendations

7. We recommended that processes be strengthened to ensure that clinicians provide
discharge instructions on all aftercare needs to patients and/or caregivers and document this in
the EHR and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that clinicians validate
patients’ and/or caregivers’ understanding of the discharge instructions they provide.

9. We recommended that processes be strengthened to ensure that patients receive ordered
aftercare services and/or items within the ordered/expected timeframe.


VA OIG Office of Healthcare Inspections                                                                  10
                                          CAP Review of the VA Montana Health Care System, Fort Harrison, MT


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 40 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 3 randomly selected units—acute medical/surgical unit 3S, the CLC nursing home care
unit, and the MH inpatient behavioral health unit—for 50 randomly selected days between
October 1, 2012, and September 30, 2013. The table below shows the areas reviewed for this
topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                       Findings
       The facility either implemented or reassessed
       a nurse staffing methodology within the
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  11
                                          CAP Review of the VA Montana Health Care System, Fort Harrison, MT


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 15 EHRs of patients with pressure ulcers (4 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
1 patient with a pressure ulcer at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected one patient room. The table below shows the areas reviewed for this
topic.   The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                 In 3 of the 15 EHRs, staff did not consistently
       documenting location, stage, risk scale score,      document the location, stage, risk scale
       and date acquired.                                  score, and/or date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                  12
                                          CAP Review of the VA Montana Health Care System, Fort Harrison, MT


NM             Areas Reviewed (continued)                                     Findings
 X     The facility defined requirements for patient     Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and       education requirements reviewed:
       education on pressure ulcer prevention and         For 2 of the applicable 14 patients with a
       development was provided to those at risk for       pressure ulcer, EHRs did not contain
       and with pressure ulcers and/or their               evidence that education was provided.
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

10. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.

11. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients with pressure ulcers and/or their caregivers
and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  13
                                          CAP Review of the VA Montana Health Care System, Fort Harrison, MT


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 10 EHRs of residents receiving restorative nursing services. We also observed
31 residents during 2 meal periods, reviewed 10 employee training/competency records and
other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
 X     Resident progress towards restorative nursing      In 2 EHRs, there was no evidence that facility
       goals was documented, and interventions             staff documented resident progress towards
       were modified as needed to promote the              restorative nursing goals.
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
 X     Training and competency assessment were            Two employee training/competency records
       completed for staff who performed restorative       did not contain evidence of completed training
       nursing services.                                   and competency assessment for range of
                                                           motion.
                                                          Seven employee training/competency records
                                                           did not contain evidence of completed training
                                                           for resident transfers.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  14
                                          CAP Review of the VA Montana Health Care System, Fort Harrison, MT


NM         Areas Reviewed for Assistive Eating                                 Findings
                Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

12. We recommended that processes be strengthened to ensure that staff document resident
progress towards restorative nursing goals and that compliance be monitored.

13. We recommended that processes be strengthened to ensure that employees who perform
restorative nursing services receive training on and competency assessment for range of motion
and resident transfers.




VA OIG Office of Healthcare Inspections                                                                  15
                                       CAP Review of the VA Montana Health Care System, Fort Harrison, MT
                                                                                             Appendix A


            Facility Profile (Fort Harrison/436) FY 2014 through
                                 March 2014a
Type of Organization                                                                     Tertiary
Complexity Level                                                                         2-Medium complexity
Affiliated/Non-Affiliated                                                                Affiliated
Total Medical Care Budget in Millions                                                    $222.6
Number of:
    Unique Patients                                                                     30,270
    Outpatient Visits                                                                   193,870
    Unique Employeesb                                                                   908
Type and Number of Operating Beds (February 2014):
    Hospital                                                                            53
    CLC                                                                                 30
    MH                                                                                  16
Average Daily Census:
    Hospital                                                                            24
    CLC                                                                                 25
    MH                                                                                  11
Number of Community Based Outpatient Clinics                                             12
Location(s)/Station Number(s)                                                            Anaconda/436GA
                                                                                         Great Falls/436GB
                                                                                         Missoula/436GC
                                                                                         Bozeman/436GD
                                                                                         Kalispell/436GF
                                                                                         Billings/436GH
                                                                                         Glasgow/436GI
                                                                                         Miles City/436GJ
                                                                                         Glendive/436GK
                                                                                         Cut Bank/436GL
                                                                                         Lewistown/436GM
                                                                                         Havre/436HC
VISN Number                                                                              19




a
    All data is for FY 2014 through March 2014 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                      16
                                                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT
                                                                                                                      Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                        17
                                                      CAP Review of the VA Montana Health Care System, Fort Harrison, MT



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                              18
                                                                                                 CAP Review of the VA Montana Health Care System, Fort Harrison, MT


                                                                         Metric Definitions
 Measure                       Definition                                                                           Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)    A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                              A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                           A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                 A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                          A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)       A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                        A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                    A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                               A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                 A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                       A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                 A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)    A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value
 PSI                           Patient safety indicator                                                             A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                     A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                       A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction              A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                 A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction            A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure               A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                              A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                  A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                       A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)           A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                           19
                                 CAP Review of the VA Montana Health Care System, Fort Harrison, MT
                                                                                       Appendix C
                               VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       April 21, 2014

          From:        Director, Rocky Mountain Network (10N19)

       Subject:        CAP Review of the VA Montana Health Care System,
                       Fort Harrison, MT

             To:       Director, Seattle Office of Healthcare Inspections (54SE)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)



       1. Thank 	you for the opportunity to respond to the proposed
          recommendations from the Combined Assessment Program Review
          completed March 4–7, 2014, at the VA Montana Health Care System,
          Fort Harrison, Montana.
       2. In r	 eviewing the proposed recommendations, the facility has
          addressed all identified deficiencies and has a plan to resolve all
          non-compliant areas cited in the report. Network 19 concurs with the
          report.
       3. If you have any questions regarding this response, please contact
          Ms. Susan Curtis, VISN 19 HSS at (303) 639-6995.


                (original signed by:)
           Ralph T. Gigliotti, FACHE




VA OIG Office of Healthcare Inspections                                                         20
                                 CAP Review of the VA Montana Health Care System, Fort Harrison, MT
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       April 16, 2014

          From:        Director, VA Montana Health Care System (436/00)

       Subject:        CAP Review of the VA Montana Health Care System,
                       Fort Harrison, MT

             To:       Director, Rocky Mountain Network (10N19)



       1. Thank you for the opportunity to review the report on the Office of
          Inspector General Combined Assessment Program Review at the VA
          Montana Health Care System, Fort Harrison, Montana during the week
          of March 4–7, 2014.         We concur with the findings and
          recommendations and will ensure that actions to correct them are
          completed as described.
       2. Please find attached our facility responses to each recommendation,
          including the status of the corrective action plans.
       3. If you have any questions regarding this response, please contact
          Ms. Edna Clausen at (406) 447-7312.


                (original signed by:)
           Christine Gregory, FACHE 

           Director, VA Montana Health Care System (436/00)





VA OIG Office of Healthcare Inspections                                                         21
                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report.

Recommendations

Recommendation 1. We recommended that the MEC document its discussion of
unusual findings or patterns from PRC quarterly summary reports.

Concur

Target date for completion: August 2014

Facility response: The Risk Management report will include system issues, unusual
findings or patterns, and open peer review items from the Peer Review Committee
(PRC) and will be presented to the Medical Executive Committee (MEC) quarterly for
discussion. The Chief of Staff will ensure the MEC minutes reflect the discussion of the
PRC findings. The Risk Manager will monitor the MEC minutes to ensure accurate
reflection of the discussion regarding PRC reporting.

Recommendation 2. We recommended that processes be strengthened to ensure that
the Cardiopulmonary Resuscitation Committee reviews each code episode and that
code reviews include screening for clinical issues prior to the code that may have
contributed to the occurrence of the code.

Concur

Target date for completion: September 2014

Facility response: The facility utilizes a code critique sheet to report all code blue
events. The critique sheet reflects the code process and identifies issues with the
process, equipment or supplies. This critique is initially screened by the ICU Nurse
Manager and is to be brought to the CRC Committee for inclusion in the code blue
discussion. The Cardiopulmonary Resuscitation Committee (CRC) members will be
provided the names of the patients for which code blue events occurred during the
quarter with the agenda for the meeting. Members of the CRC Committee have been
educated on the updated review process and are expected to review the medical record
for each identified patient paying particular attention to clinical issues prior to the code
that may have contributed to the occurrence of the code. Discussion of each code
event will occur in the CRC Committee and be reflected in the meeting minutes. The
Quality Management Department will monitor the CRC meeting minutes quarterly and
report results to the Healthcare Quality, Safety, and Value Executive Committee.




VA OIG Office of Healthcare Inspections                                                        22
                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT


Recommendation 3. We recommended that the facility have a Surgical Work Group
that meets monthly, includes the COS as a member, and documents its review of
National Surgical Office reports.

Concur

Target date for completion: July 2014

Facility response: The Surgical Work Group has been scheduled to meet monthly
beginning in April 2014. Members of the Group at a minimum include the Chief of
Surgery as chairperson, Chief of Staff, OR Nurse Manager and the VASQIP Review
Nurse. A standardized agenda is being developed to include all required review items
form VHA Handbook 1102.01. Findings and results of the Surgical Work Group will be
reported to the MEC.

Recommendation 4. We recommended that processes be strengthened to ensure that
all surgical deaths are tracked and reviewed by appropriate clinical staff.

Concur

Target date for completion: August 2014

Facility response: The Risk Manager has been identifying surgical deaths as part of the
Risk Morbidity and Mortality reporting and including these deaths in the facility peer
review process. The Surgical Service has not however consistently completed M&M
reviews on every surgical death. The Risk Manager will refer the names of all surgical
deaths to the Chief of Surgery for inclusion in an M&M review to be completed within
the following month. Minutes of these reviews will be documented and results of
findings will be reported in the monthly Surgical Work Group meetings. The Risk
Manager will conduct auditing of surgical M&Ms and include the findings in the quarterly
Risk Management report to the MEC.

Recommendation 5. We recommended that processes be strengthened to ensure that
the quality of entries in the EHR is reviewed at least quarterly.

Concur

Target date for completion: September 2014

Facility response: Medical record review processes, tools, and reporting requirements
for all clinical services have been in place for some time. The results of these reviews
have been maintained in an excel spreadsheet and follow outs are shared with the
individual service chiefs. Results of the ongoing monitoring have not been aggregated,
trended or discussed in depth at the Medical Records Review Committee (MRRC).
Analysis of medical record reviews that are less than 100% acceptable will be
aggregated, discussed, and documented at the quarterly MRRC meeting beginning with
2nd quarter FY14. The MRRC auditing results will be reported to the MEC.



VA OIG Office of Healthcare Inspections                                                        23
                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT


Recommendation 6. We recommended that processes be strengthened to ensure that
patient learning assessments are conducted and documented and that compliance be
monitored.

Concur

Target date for completion: August 2014

Facility response: A Learning Needs Assessment (LNA) was added to the Nursing
Admission template and the Observation Nursing Admit template in January 2014. Staff
were educated regarding the need and reasons for completing a LNA as well as
identifying actions taken to accommodate barriers. A review of learning needs from the
admission note and an update to barriers and needs identified field were added to the
“discharge planning interdisciplinary” note as well. A sampling of medical records was
audited in February with 79% compliance with a LNA including barriers to learning
identified. Auditing in March resulted in 98% compliance with the LNA. Monitoring will
continue monthly for 4 months to ensure sustained compliance and then will be done
randomly thereafter.

Recommendation 7. We recommended that processes be strengthened to ensure that
clinicians provide discharge instructions on all aftercare needs to patients and/or
caregivers and document this in the EHR and that compliance be monitored.

Concur

Target date for completion: September 2014

Facility response: Discharge instruction processes are being updated to ensure
patients’ identified post-discharge needs are included in the discharge instructions.
Discharge Instructions templates are being updated to include all elements required by
VHA policy. All applicable inpatient staff will be educated on the updated discharge
instruction processes, discharge instruction requirements in VHA and facility policies,
and the revised templates.

Compliance with requirements for discharge instructions to be consistent with patients’
identified post-discharge needs and to include all elements mandated by VHA policy will
be monitored monthly beginning in June 2014. Monthly audits will continue until greater
than 90% compliance is sustained and then will be completed randomly thereafter.
Monthly auditing results will be reported to the MEC.

Recommendation 8. We recommended that processes be strengthened to ensure that
clinicians validate patients’ and/or caregivers’ understanding of the discharge
instructions they provide.

Concur

Target date for completion: September 2014



VA OIG Office of Healthcare Inspections                                                        24
                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT


Facility response: All applicable inpatient staff will be educated on the need to document
a patient response to the understanding of the discharge instructions provided. The
patient response can be documented in the Nurse Discharge Summary, the Physician’s
Discharge Summary or any other discharge note. The Post Discharge Telephone
Contact process continues to improve to include questions of whether or not the patient
received discharge instructions, medications and equipment/supplies. Patient concerns
and questions are answered at the time of the call or referred to the appropriate person
for follow-up. Patients are also encouraged to call for any further questions or
concerns.

Compliance with documenting the patient’s understanding of discharge instructions will
be monitored monthly beginning in June 2014 and will continue until greater than 90%
compliance is sustained and then will be completed randomly thereafter. Monthly
auditing results will be reported to the Medical Records Review Committee.

Recommendation 9. We recommended that processes be strengthened to ensure that
patients receive ordered aftercare services and/or items within the ordered/expected
timeframe.

Concur

Target date for completion: September 2014

Facility response: A Nursing discharge Summary template is being developed and will
include identifying items ordered for aftercare, whether the items were provided at time
of discharge or expected time frame for delivery. The post discharge phone call will
include questions regarding receipt of supplies, equipment and/or treatments and
whether there are any questions regarding the supplies, equipment, or treatments.
Those items not received at time of discharge phone call will be tagged for another
follow-up phone call. All information will be documented in the electronic medical
record.

Compliance with documenting the patient’s receipt of items ordered for aftercare will be
monitored monthly by a sampling of discharges beginning in June 2014 and will
continue until greater than 90% compliance is sustained and then will be completed
randomly thereafter. Monthly auditing results will be reported to the Medical Records
Review Committee.

Recommendation 10. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: September 2014




VA OIG Office of Healthcare Inspections                                                        25
                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT


Facility response: Education was provided to the 3rd and 4th floor staff on 3/14 and 3/21
by the Certified Wound Care Nurse (CWCN) which included elements of pressure ulcer
staging, location, risk scale score, and specific dates of treatment. A wound care
resource wall which includes skin tear information along with wound and ulcer staging
information was placed on the medical and surgical floors for staff to refer to. The
Inpatient Care Nurse Managers or designee and/or the wound care coordinator will
audit 100% of hospital acquired pressure ulcers and at least 10% of pressure ulcers that
present on admission for staging, location, risk scale score and specific dates of
treatment. Audits will be done monthly for 4 months or until 90% compliance is
sustained and then randomly thereafter. These results will be reported to the Program
Assembly Committee in Patient Care Services with the first report due on 06/01/2014.

Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients with
pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: September 2014

Facility response: A review of the wound care template is being completed by the
CWCN and wound care team/stakeholders/HPDP to determine appropriate location for
documentation of patient education. Once consensus is reached the template will be
modified to reflect the education provided to patients and/or their caregivers for
pressure ulcer education. Staff will be educated on the changes at staff meetings and
through e-mails. Audits will be done monthly for 4 months or until 90% compliance is
sustained and then randomly thereafter. These results will be reported to the Program
Assembly Committee in Patient Care Services with the first report due on 06/01/2014.

Recommendation 12. We recommended that processes be strengthened to ensure
that staff document resident progress towards restorative nursing goals and that
compliance be monitored.

Concur

Target date for completion: September 2014

Facility response: The Restorative RN will develop and implement a templated note to
document restorative nursing services, patient progress, deterioration or maintenance,
and the reason for any disruption to the restorative services. Applicable CLC staff will
be educated on the need to complete restorative nursing services according to clinician
orders and/or residents’ care plans, updated procedures, and the new restorative
nursing services note template.

Compliance audits will be maintained at 90% compliance for the next 4 months and
then will be conducted randomly. Monthly auditing results will be reported to the
Medical Records Review Committee.



VA OIG Office of Healthcare Inspections                                                        26
                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT


Recommendation 13. We recommended that processes be strengthened to ensure
that employees who perform restorative nursing services receive training on and
competency assessment for range of motion and resident transfers.

Concur

Target date for completion: July 2014

Facility response: Training and competency assessments of range-of-motion (ROM)
and safe resident transfer for all staff will be provided and completed by July 1, 2014.
The physical therapist will provide new employee training and competency assessment
for ROM and safe resident transfer during new employee orientation. Training and
competency will be recorded in the employee’s competency folder. The physical
therapist will also conduct ongoing annual training and competency assessment for
ROM and safe resident transfer. Monitoring will be conducted through the Education
Service competency tracer process and reported to the Continuous Accreditation
Readiness Committee quarterly.




VA OIG Office of Healthcare Inspections                                                        27
                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT
                                                                                      Appendix E

                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Mary Noel Rees, MPA, Team Leader
Contributors            Carol Lukasewicz, RN, BSN
                        Sarah Mainzer, RN, JD
                        Sami O’Neill, MA
                        Susan Tostenrude, MS
                        Robert Sproull, Resident Agent in Charge, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Marc Lainhart, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        28
                                CAP Review of the VA Montana Health Care System, Fort Harrison, MT
                                                                                      Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Rocky Mountain Network (10N19)
Director, VA Montana Health Care System (436/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jon Tester, John E. Walsh
U.S. House of Representatives: Steve Daines


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        29
                                        CAP Review of the VA Montana Health Care System, Fort Harrison, MT
                                                                                              Appendix G


                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 U.S. Pharmacopeia <797>, Guidebook to Pharmaceutical Compounding–Sterile Preparations, June 1, 2008.
	 10 CFR 20, Subpart F.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.




VA OIG Office of Healthcare Inspections                                                                            30
                                        CAP Review of the VA Montana Health Care System, Fort Harrison, MT



5
    The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    31
